No.

IN THE

€supreme Court of tbe zuniteb states
RONRICO SIMMONS, JR.,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,396 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 4, 2021.

Cohn Casey Hog
Wilson-Epes Pri mg Co., Inc.

